Audit Report




OIG-11-084
SAFETY AND SOUNDNESS: Material Loss Review of Partners
Bank
July 14, 2011




Office of
Inspector General
Department of the Treasury
 
Contents



Memorandum for the Acting Director


Section I   KPMG LLC’s Report on the Material Loss Review of Partners
            Bank


Section II Report Distribution
This page intentionally left blank.
                                           DEPARTMENT OF THE TREASURY
                                                   W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                       July 14, 2011



            MEMORANDUM FOR JOHN E. BOWMAN
                           ACTING DIRECTOR

            FROM:                       Susan Barron /s/
                                        Director, Banking Audits

            SUBJECT:                    Material Loss Review of Partners Bank


            INTRODUCTION

            The Office of Thrift Supervision (OTS) closed Partners Bank (Partners), Naples,
            Florida, and appointed the Federal Deposit Insurance Corporation (FDIC) as receiver
            on October 23, 2009. As of May 26, 2011, FDIC estimated that Partners’ loss to
            the Deposit Insurance Fund was $34.6 million.

            Under section 38(k) of the Federal Deposit Insurance Act, we are responsible for
            conducting a material loss review of the failure of Partners. 1 To help fulfill this
            responsibility, we contracted with KPMG LLP (KPMG), an independent certified
            public accounting firm. KPMG’s report dated July 14, 2011, is provided as
            Section I.

            RESULTS OF MATERIAL LOSS REVIEW

            We concur with KPMG’s reported conclusions regarding Partners’ causes of failure
            and OTS’s supervision of Partners:

                 •   Partners failed primarily because of (1) loan concentrations, (2) aggressive
                     underwriting and poor risk management, (3) failure to formulate and execute
                     a viable business plan, (4) poor management and board oversight, and
                     (5) inadequate capital levels. These factors, combined with the rapid decline
                     in the economic environment, resulted in the deterioration of Partners’ asset

            11
               At the time of Partners’ failure, section 38(k) defined a loss as material if it exceeded the greater
            of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k
            defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million
            for calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
            provision that the threshold be raised temporarily to $75 million under certain conditions).
                                    Material Loss Review of Partners Bank
                                    (OIG-11-084)
Page 2

             quality, including a substantial volume of problem loans and significant loan
             losses. In turn, these loan losses significantly diminished earnings and eroded
             capital, and ultimately, resulted in the failure of Partners.

        •    Through its supervisory efforts, OTS identified key risks in Partners’
             management practices and operations and brought these risks to the
             attention of Partners’ board of directors and management team through
             regular discussions and correspondence, on-site examinations, examination
             reports, and formal supervisory actions. OTS conducted three full-scope
             examinations beginning in 2006. However, OTS’s supervision did not
             adequately address Partners’ problems early enough to prevent and/or
             minimize losses to the Deposit Insurance Fund. OTS failed to enforce
             conditions of Partners’ charter approval order; did not accurately rate
             Partners’ asset quality, management, and earnings CAMELS 2 components;
             failed to enforce conditions of the branch application approval; and failed to
             issue an informal enforcement action when OTS classified Partners as a
             composite 3-rated institution.

Details of KPMG’s conclusions are contained in their report.

We also concur with KPMG’s recommendations in the report that:

    •       OTS (1) take action on OTS’s internal failed bank review of Partners, (2)
            ensure supervisory staff enforce compliance with conditions of approved
            charters, (3) caution supervisory staff to exercise OTS’s discretion to impose
            additional conditions when approving modifications to an existing approved
            business plan, particularly when management does not fully comply with the
            original business plan, (4) caution supervisory staff to consider whether
            additional capital should be required and in place prior to permitting an
            institution to proceed with a business plan that requires additional capital, and
            (5) remind supervisory staff to consider OTS guidance regarding informal
            enforcement action when a bank is 3-rated.




2
 CAMELS is an acronym for performance rating components for financial institutions: capital
adequacy, asset quality, management, earnings, liquidity, and sensitivity to market risk. Numerical
values range from 1 to 5, with 1 being the best rating and 5 being the worst.

                           Material Loss Review of Partners Bank
                           (OIG-11-084)
Page 3

In a written response, OTS acknowledged and concurred with KPMG’s conclusions
and recommendations in the report. OTS believes the policies, procedures and
guidance it has put in place address the recommendations contained in the report.
It should also be noted that effective July 21, 2011, the functions of OTS are to
transfer to other federal banking agencies.

OBJECTIVES, SCOPE, AND METHODOLOGY

Under section 38(k), we are responsible to prepare a report to OTS that
(1) ascertains why Partners’ problems resulted in a material loss to the Deposit
Insurance Fund; (2) reviews OTS’s supervision of the institution, including its
implementation of the prompt corrective action provisions of section 38(k); and
(3) makes recommendations for preventing any such loss in the future.

To assist us in fulfilling this responsibility, we contracted with KPMG to perform a
material loss review in accordance with generally accepted government auditing
standards. We evaluated the nature, extent, and timing of the work; monitored
progress throughout the audit; reviewed the documentation of KPMG; met with
partners and staff members; evaluated the key judgments; met with OTS officials;
performed independent tests of OTS supervisory records; and performed other
procedures we deemed appropriate in the circumstances. We conducted our work
in accordance with generally accepted government auditing standards.

Should you wish to discuss the report, you may contact me at (202) 927-5776.




                   Material Loss Review of Partners Bank
                   (OIG-11-084)
This page intentionally left blank.
              Section I

     KPMG LLC’s Report on the
Material Loss Review of Partners Bank
This page intentionally left blank.
             U.S. Department of Treasury Office of Inspector General

                           Material Loss Review of Partners Bank

                                        July 14, 2011




Material Loss Review of Partners Bank
Contents
KPMG LLP Audit Report ............................................................................            1

    Causes of Partners Bank’s Failure ................................................................        4
         Loan Concentrations by Year of Origination and
             in Construction and Land Loans ....................................................              4
         Aggressive Underwriting Practices and Poor Risk Management ..............                            6
         Failure to Formulate and Execute a Viable Business Plan .......................                      9
         Poor Management and Board Oversight ...............................................                 11
         Inadequate Capital Levels ..................................................................        12

    OTS’s Supervision of Partners.....................................................................       13
         Summary of OTS’s Supervisory Actions of Partners .............................                      14
         OTS Failed To Enforce Conditions of the Charter Approval Order ...........                          15
         OTS Did Not Accurately Rate Partners’ Asset Quality, Management, and
            Earnings CAMELS Components ....................................................                  16
         OTS Failed To Enforce Conditions of the Branch Application Approval ....                            17
         OTS Failed To Issue an Informal Enforcement Action When Partners Was
            Classified as a Composite 3-rated Institution ...................................                19
         OTS’s Use of Prompt Corrective Action ..............................................                21
         OTS Internal Failed Bank Review ........................................................            23

    Recommendations .....................................................................................    24

Appendices

    Appendix 1:         Objectives, Scope, and Methodology ....................................              25
    Appendix 2:         Background........................................................................   29
    Appendix 3:         Management Response .......................................................          33




Material Loss Review of Partners Bank
Abbreviations

  ALLL          allowance for loan and lease losses
  C&D           cease and desist order
  CEO           chief executive officer
  CRE           commercial real estate
  FDIC          Federal Deposit Insurance Corporation
  MRBA          matter requiring board attention
  OIG           Treasury Office of Inspector General
  OTS           Office of Thrift Supervision
  PCA           prompt corrective action
  ROE           report of examination
  TFR           thrift financial report




                Material Loss Review of Partners Bank   Page ii
                                        KPMG LLP
                                        2001 M Street, NW
                                        Washington, DC 20036




July 14, 2011



Office of Inspector General
Department of the Treasury
740 15th Street, N.W.
Suite 600
Washington, DC 20220

Material Loss Review Report for Partners Bank, Naples, Florida

This report presents the results of our work conducted to address the performance audit
objectives relative to the Material Loss Review for Partners Bank (Partners), Naples,
Florida. The objectives of this performance audit were to (1) determine the causes of
Partners’ failure and the resulting material loss to the Deposit Insurance Fund (DIF), (2)
evaluate the Office of Thrift Supervision’s (OTS) supervision of Partners, including OTS’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38 of the
Federal Deposit Insurance Act, and (3) make recommendations for preventing a material
loss in the future. 1

Causes of Failure
Partners’ failure can be attributed to (1) loan concentrations, (2) aggressive underwriting
and poor risk management, (3) failure to formulate and execute a viable business plan, (4)
poor management and board oversight and (5) inadequate capital levels. These factors,
combined with the rapid decline in the economic environment, resulted in the
deterioration of the thrift’s asset quality, including a substantial volume of problem loans,
and significant loan losses. In turn, these loan losses significantly diminished earnings,
negatively impacted capital, and ultimately resulted in the failure of Partners.

Evaluation of Supervision
Through its supervisory efforts, OTS identified key risks in Partners’ management
practices and operations and brought these risks to the attention of Partners’ board of

1
 In conducting this performance audit and preparing this report, KPMG relied primarily on information
provided by OTS. Appendix I, Objective, Scope and Methodology, describes in greater detail the procedures
used by KPMG.



Material Loss Review of Partners Bank
directors and management team through regular discussions and correspondence, on-site
examinations, examination reports, and formal supervisory actions. OTS conducted three
full-scope examinations beginning in 2006. However, we noted that OTS’s supervision
did not adequately address Partners’ problems early enough to prevent and/or minimize
losses to the DIF. OTS failed to enforce conditions of Partners’ charter approval order; did
not accurately rate Partners’ asset quality, management, and earnings CAMELS
components; failed to enforce conditions of the branch application approval; and failed to
issue an informal enforcement action when OTS classified Partners as a composite 3-
rated institution.

Prompt Corrective Action
OTS followed its PCA implementation guidance with respect to Partners, except for one
instance where OTS did not provide a timely notice of intent to issue a PCA directive
stating that the bank had failed to submit a capital restoration plan. Partners’ capital
levels deteriorated rapidly as Partners was considered Well Capitalized for PCA purposes
as of December 31, 2008, Undercapitalized for PCA purposes as of March 31, 2009, and
Critically Undercapitalized for PCA purposes as of June 30, 2009; however, by the time
OTS issued a PCA capital directive, Partners was already considered Critically
Undercapitalized and was at risk of failure.

OTS Internal Failed Bank Review
OTS conducted an internal failed bank review of Partners’ failure and found that Partners’
failure primarily resulted from high levels of problem assets that steadily eroded capital.
Partners’ deteriorating asset quality and continuing significant operating deficiencies
eliminated any prospective acquirers or merger with Partners in order to recapitalize
Partners Financial Corporation (Partners’ holding company) and Partners. The OTS review
noted that concentrations of risk were also a contributor to Partners’ failure. OTS’s
review concluded that it should have (1) been more aggressive in its supervisory approach
when a de novo institution deviates from its approved business plan and (2) considered
higher capital requirements as well as absolute limitations of higher-risk-lending
concentrations.

Recommendations to Prevent Future Losses
We recommend that OTS (1) take action on its internal failed bank review of Partners;
(2) ensure supervisory staff enforce compliance with conditions of charter approval; (3)
caution supervisory staff to exercise discretion to impose additional conditions when
approving modifications to an existing approved business plan, particularly when
management does not fully comply with the original business plan; (4) caution supervisory
staff to consider whether additional capital should be required and in place prior to
permitting an institution to proceed with a business plan that requires additional capital;
and (5) remind supervisory staff to comply with OTS guidance regarding informal


                   Material Loss Review of Partners Bank                           Page 2
enforcement action when a bank is a composite 3-rated. In a written response, OTS
acknowledged and concurred with our conclusions and recommendations in the report.
OTS believes the policies, procedures and guidance it has put in place address the
recommendations contained in the report.


We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS). Those standards require that we plan and perform the
performance audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

This performance audit did not constitute an audit of financial statements in accordance
with GAGAS. We were not engaged to, and did not, render an opinion on the Treasury
OIG or OTS’s internal controls over financial reporting or over financial management
systems (for purposes of OMB’s Circular No. A-127, Financial Management Systems,
July 23, 1993, as revised). We caution that projecting the results of our evaluation to
future periods is subject to the risks that controls may become inadequate because of
changes in conditions or because compliance with controls may deteriorate.

The information included in this report was obtained during our fieldwork, which occurred
during the period from January 19, 2010 through August 23, 2010, and our results are
as of July 14, 2011.

Very truly yours,

/s/

KPMG




                    Material Loss Review of Partners Bank                        Page 3
Causes of Partners Bank’s Failure
       The primary causes of Partners’ failure were (1) loan concentrations, 2 (2)
       aggressive underwriting and poor risk management, (3) failure to formulate and
       execute a viable business plan, (4) poor management and board oversight, and (5)
       inadequate capital levels. These factors, combined with the rapid decline in the
       economic environment, resulted in the deterioration of the Partners’ asset quality,
       including a substantial volume of problem loans and significant loan losses. In turn,
       these loan losses significantly diminished earnings and eroded capital, and
       ultimately, resulted in the failure of Partners.

       Loan Concentrations by Year of Origination and in Construction and Land Loans

       Partners opened in 2005 during a time period viewed in retrospect by OTS
       Southeast Region supervisory staff as the peak of the Naples real estate market. It
       was implicit in OTS’s approvals of Partners’ charter and business plan that Partners
       would begin originating its loan portfolio in 2005 and continue to originate loans
       throughout 2006. Due to the timing of Partners’ opening, a majority of the loan
       portfolio was originated at the height of the Florida real estate market, leaving
       Partners more susceptible to loan defaults because of the subsequent decline in
       real estate market values. Having an entire loan portfolio that was more susceptible
       to default as a result of loan balances exceeding the underlying asset values when
       the Florida real estate values dropped precipitously was detrimental to Partners.

       Partners had $12.5 million of classified assets at September 30, 2009, one month
       before Partners was placed into receivership. As figure 1 shows, loans originated in
       2006 were the largest group of those classified assets.




2
  Certain terms that are underlined when first used in this report, are defined in, Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the Treasury
Office of Inspector General’s (OIG) website at http://www.treasury.gov/about/organizational-
structure/ig/Documents/oig11065%20(508).pdf.


                       Material Loss Review of Partners Bank                                      Page 4
                   Figure 1. Classified loans as of September 30, 2009 3 (in millions)

                                      September 30, 2009 Classified Assets by 
                                              Origination Vintage
                                    $12

                                    $10

                                    $8
                      in Millions




                                    $6

                                    $4

                                    $2

                                    $0
                                             2005           2006               2007   2008

                                                             Original Amount

                   Source: OTS examination workpapers, 2009

          In December 2006, OTS issued CEO Letter No. 252 which included OTS guidance
          entitled “Concentrations in Commercial Real Estate Lending, Sound Risk
          Management Practices,” to clarify to its examiners that institutions actively
          engaged in commercial real estate (CRE) lending should (1) assess their
          concentration risk and (2) implement appropriate risk management policies to
          identify, monitor, manage, and control their concentration risks.

          Partners primarily achieved loan growth through originations of real-estate related
          loans in the Naples and Collier County, Florida, area, including construction and
          land development loans, non-owner-occupied loans, and non-residential real estate
          loans. The growth in real estate loans coupled with the decline in capital levels led
          to higher levels of CRE concentration risk. Partners’ concentration of construction
          and land development loans was 119 percent of total capital at June 30, 2006,
          and 131 percent of total capital at September 30, 2007. Figure 2 shows Partners’
          CRE loan portfolio concentrations throughout its history.




3
    The data is based on the original loan amount ($17.3 million as opposed to the current amount
    outstanding of $12.5 million) in order to reflect the loans that had been transferred to Real Estate Owned
    and did not have a current balance at September 30, 2009.


                                    Material Loss Review of Partners Bank                            Page 5
Figure 2. Partners’ loan portfolio concentrations, 2005-2009
                                                             Loan Concentrations
                                 900%
                                 800%
   Percentage of Total Capital




                                 700%
                                 600%
                                 500%
                                 400%
                                 300%
                                 200%
                                 100%
                                  0%
                                    Sep‐05       Mar‐06     Sep‐06     Mar‐07   Sep‐07    Mar‐08    Sep‐08   Mar‐09   Sep‐09




                                        Land and Construction Actual       Land and Construction Benchmark     CRE Actual




Source: Partners’ Thrift Financial Reports (TFR) reports and OTS Universal Thrift Performance Reports.

Aggressive Underwriting Practices and Poor Risk Management

Partners’ TFRs reported deteriorating asset quality because of aggressive
underwriting practices and poor risk management. OTS’s November 2007 report of
examination (ROE) noted that asset quality was less than satisfactory because of
the downturn in the real estate market and aggressive loan underwriting by prior
management, which resulted in a major increase in classified and nonperforming
assets. OTS also noted that all of these loans included collateral valuations that
were likely near the peak of the real estate market cycle and had limited borrower
income verification.

During its loan review, OTS further noted exceptions to loan policies and risky
credit practices. Examples of underwriting weaknesses found by OTS were loan-to-
value ratios and debt-to-income ratios that exceeded the loan policies set by the
board, loans to subprime borrowers, and policy exceptions that were not approved
by the board. Furthermore, OTS noted that Partners’ first president was the loan
officer for several of the loans. In addition, OTS noted during its April 2006 field
visit that the outstanding balances for loan and construction loans significantly
exceeded board-approved loan portfolio diversification limitations. In response to
examiner concerns, the board revised the loan portfolio limits in September 2006.

Independent internal asset and loan quality reviews obtained by Partners during
March 2007 and February 2008 noted underwriting weaknesses at the thrift. The
March 2007 report cited underwriting weaknesses in some of Partners’ largest
loans, some of which eventually became classified. The February 2008 report


                                                  Material Loss Review of Partners Bank                                        Page 6
noted certain information was not always available or not used when preparing a
complete credit analysis. The independent reviewer observed weaknesses in the
calculations of cash flows and tax returns that were not properly taken into
consideration when preparing available debt coverage. It was also noted that the
financial information was not current at the time the loans were underwritten.
Furthermore, Partners’ independent auditors noted that documentation supporting
loan and deposit file maintenance was either missing or not normally retained.

Partners’ poor asset quality resulted in an increased allowance for loan and lease
losses (ALLL) and increased charge-offs of problem loans. Figure 3 details classified
assets as a percentage of total loans.

Figure 3. Classified assets (in thousands)


                              6/30/2009      3/31/2009       12/31/2008          9/30/2007       6/30/2006
Classified assets          $       12,223    $     12,717    $       10,930     $       5,190                 ‐
Total Loans                         51,597          52,877             53,193          36,450          38,204
Classified assets  to 
total loans                         24%              24%               21%             14%                0%
Source: Reports on examinations and related workpapers.




                Material Loss Review of Partners Bank                                                Page 7
Figure 4 presents the provision for loan and lease losses from September 30, 2005
through September 30, 2009. We noted that the provision for loan losses
significantly exceeded the business plans from mid-2007 through March 31, 2009,
the last date for which approved business plan metrics were available.

Figure 4. Provision for loan losses




Source: Forecast 2005 and 2006 Business Plans; Actual: TFR data submitted by Partners.
Note: For the period September 2005 through September 2006, actual results are compared to the 2005
Business Plan. For the period December 2006 through March 2009, actual results are compared to the 2006
Business Plan. The approved business plans did not include metrics for the period April 1, 2009, through the
receivership date.

Figure 5 presents charge-off dollars by quarter. Based on a review of Partners’
TFRs, there were no charge-offs recorded prior to the September 2007 TFR.

Figure 5. Charge-offs for years 2007-2009 (in thousands)




Source: Partners TFRs for 2007-2009.




                 Material Loss Review of Partners Bank                                             Page 8
         The high levels of both provisions for loan losses and charge-offs are a direct result
         of the vintage of the loans and Partners’ aggressive underwriting practices and
         poor risk management noted by OTS. The levels of provision for loan losses eroded
         Partners capital, and, ultimately, contributed to the failure of Partners.

         Failure to Formulate and Execute a Viable Business Plan

         Partners was a de novo financial institution whose charter was approved in August
         2005. As part of the charter approval process, Partners’ management and board
         were required to submit a business plan. Based on 12 C. F. R. Part 543(c).
         Business Plan Requirements, because de novo federal associations have no
         operating or supervisory history, OTS believes that a thorough business plan is
         essential to ensuring that a de novo federal association will be operated in a safe
         and sound manner. In addition, Section 625 of the OTS Applications Handbook,
         Business Plan Guidelines, states that the business plan should be a comprehensive
         plan, which is the result of in-depth planning by the institution’s organizers and
         management. The forecasts of market demand, customer base, competition, and
         economic conditions should be realistic.

         As required, the organizers of Partners submitted a business plan which was
         reviewed and approved by OTS in August 2005 in connection with the granting of
         its charter. 4 This business plan included $12 million of capital, an infrastructure
         that included one main office and a branch location, a loan portfolio that would
         include few speculative construction loans with most commercial loans being
         secured by real estate, and a local market focus (defined as Collier County, Florida).
         This business plan was acceptable to OTS and received OTS approval. Review of
         correspondence shows that within weeks of approval of the charter, the president
         of Partners conveyed to OTS that the organizers knew at the time of the filing of
         the charter that the business plan did not represent the strategic intent of the
         organizers of Partners and that Partners no longer considered the 2005 business
         plan to be viable. Once the issues with the business plan were revealed, OTS
         requested that Partners submit a modified business plan. In the meantime, OTS
         permitted Partners to continue to operate in a manner that significantly deviated
         from the approved 2005 business plan.

         Partners’ management submitted and OTS approved a second business plan in
         November 2006. The 2006 business plan included an increase in the concentration
         in higher-risk loans, an increase in out-of-market/nonlocal bank participation loans,


4
    OTS Charter Approval Order Number 2005-32, dated August 18, 2005


                       Material Loss Review of Partners Bank                           Page 9
additional branching, and additional capital to support the increased risk and
infrastructure costs.

Although Partners received OTS approval for its business plans in August 2005 and
in November 2006, Partners was unable to perform in accordance with those
approved business plans. For example, the November 2007 OTS ROE noted that
Partners did not meet the projections of the 2006 business Plan mainly due to
management turnover, the downturn in the real estate market and general
economic environment in which Partners operated, and the abandonment of the
branch expansion plans. In addition, by December 2007, Partners had determined
that they would be unable to raise the additional capital and abandoned the
additional branching strategy detailed in the 2006 business plan and developed a
third business plan.

The third business plan was submitted to OTS in accordance with OTS
Examinations Handbook Section 430 which requires that “associations must submit
a revised business plan to the Regional Office if its projections change
substantially.” The third business plan deferred the additional branching and
focused on significantly increasing loan originations and managing operating costs.
Partners submitted that business plan for OTS approval in February 2008. OTS
rejected that plan in March 2008 because the business plan was too aggressive
and high risk.

Partners submitted a fourth business plan in April 2008, but in June 2008
requested that OTS disregard the business plan. As the revised business plans
were not acceptable to OTS, Partners essentially operated without a business plan
until its receivership in October 2009.




             Material Loss Review of Partners Bank                          Page 10
As figure 6 illustrates, Partners actual income (loss) before taxes was consistently
below its approved business plan projections.

      Figure 6. Budget vs. Actual pretax income, years 2005-2009

                                    Income (loss) before Income Taxes
                  $1,000
                    $500
                      $0
                   ‐$500
         Thousands




                 ‐$1,000
                 ‐$1,500
                 ‐$2,000
                 ‐$2,500
                 ‐$3,000
                           Sep‐05
                                    Dec‐05
                                             Mar‐06
                                                      Jun‐06
                                                               Sep‐06
                                                                        Dec‐06
                                                                                 Mar‐07
                                                                                          Jun‐07
                                                                                                   Sep‐07
                                                                                                            Dec‐07
                                                                                                                     Mar‐08
                                                                                                                              Jun‐08
                                                                                                                                       Sep‐08
                                                                                                                                                Dec‐08
                                                                                                                                                         Mar‐09
                                                                                                                                                                  Jun‐09
                                                                                                                                                                           Sep‐09
                                                                                            Forecast                          Actual
       Source: Forecast – Partners’ 2005 and 2006 Business Plans; Actual – Partners’ TFRs
       Note: For the period September 2005 through September 2006, actual results are
       compared to the 2005 Business Plan. For the period December 2006 through March 2009,
       actual results are compared to the November 2006 Business Plan. The approved business
       plans did not include metrics for the period April 1, 2009, through the receivership date.

In addition to Partners’ inability to adhere to the financial projections included
within their approved business plans, OTS noted that Partners had noninterest
expense that was in excess of peer banks. The March 2009 ROE noted that
general and administrative expenses remained high and were the largest
contributing factor to core losses year over year. For the calendar year ended
December 31, 2009, general and administrative expenses represented 5.3 percent
of average assets, while the peer group median was 2.7 percent.

The decline in the economic environment combined with Partners’ inability to
formulate and adhere to a clear, comprehensive, coherent strategy and related
business plan resulted in a lack of strategic direction which ultimately led to losses
that eroded Partners capital and contributed to Partners’ failure.

Poor Management and Board Oversight

Partners did not have effective or consistent management and board oversight.
During interviews with OTS Southeast Region supervisory staff and the Federal
Deposit Insurance Corporation (FDIC)-Division of Resolution and Receiverships, OTS


                     Material Loss Review of Partners Bank                                                                                                                          Page 11
and FDIC representatives we interviewed commented that Partners’ first president
and first senior credit officer/chief lending officer were responsible for making many
of the decisions that led to the failure of Partners.

During its 4 year operating history, Partners’ president, chief lending offer, and
chief financial officer resigned and were replaced. In addition, one director resigned
and was not replaced. The majority of these resignations occurred during 2007.

In the November 2007 ROE, OTS noted that the unsuccessful execution of the
OTS-approved business plans and the less than satisfactory overall financial
condition reflected poorly on the board’s oversight and management’s
performance. OTS also noted that Partners’ financial condition was less than
satisfactory and a regulatory concern. Partners lacked direction and effective
management, and asset quality was less than satisfactory. Furthermore, OTS noted
that the entire senior management team, including the president, a director, and
several other employees resigned since the prior examination.

Inadequate Capital Levels

Partners incurred operating losses from the time it opened in 2005 through its
closure in 2009. Declining asset quality caused capital to steadily decrease. Within
only 6 months, the operating losses eroded Partners’ capital from being well-
capitalized at December 31, 2008, to critically undercapitalized at June 30, 2009.
The following table shows Partners’ capital ratios and the dates of significant
regulatory actions by OTS from December 2008 to October 2009.




             Material Loss Review of Partners Bank                           Page 12
        Figure 7. Partners’ Capital Levels
                                            Capital Ratio (Percent)
                                                                       Tier 1 /         Regulatory
                               Total-Risk       Tier 1 / Risk-      Leverage (and          Capital
     Date of Report              Based             Based           tangible equity)      Category*
    12/31/2008              11. 28%           10. 03%             7. 17%              Well Capitalized
    3/31/2009**             6. 00%            4. 74%              3. 42%              Undercapitalized
    4/21/2009               OTS notified Partners of its Troubled Condition
    6/30/2009               3. 54%            2. 29%              1. 70%              Critically
                                                                                      undercapitalized
    8/21/2009               OTS issued a Cease and Desist (C&D) order
    9/18/2009               OTS issued a PCA directive
    9/30/2009               1. 60%          0. 80%           0. 63%                   Critically
                                                                                      undercapitalized
    * Thrifts must maintain a minimum Total Risk-Based Capital ratio of 10 percent, Tier 1 Risk-
     Based Capital Ratio of 6 percent, and Tier 1 Leverage Capital Ratio of 5 percent to be
     considered well-capitalized.
    ** TFR was amended on 8/11/2009 as a result of the OTS examination. Significant adjustments
     were made to the allowance for loan losses and related provision for loan losses as a result of
     the March 2009 OTS examination.
    Sources: TFR and ROE.


    As shown in Figure 7 above, by March 31, 2009, Partners was unable to maintain
    the capital levels required by OTS to remain well or adequately capitalized. Net
    operating losses attributed primarily to the provision for loan losses charged to
    earnings was the primary reason Partners was unable to maintain the required
    capital levels.

OTS’s Supervision of Partners
    The OTS supervision of Partners was inconsistent throughout Partners’ existence.
    OTS did not act on situations calling for more timely supervision and stronger
    enforcement actions earlier.




                     Material Loss Review of Partners Bank                                     Page 13
  Summary of OTS’s Supervisory Actions of Partners

  Table 1 summarizes the results of OTS’s safety and soundness full-scope and
  limited-scope examinations of Partners from 2006 until its closure in October 2009.
  Generally, matters requiring board attention (MRBAs) represent the most significant
  items reported in ROEs requiring corrective action.

      Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against Partners
                                                        Examination Results
                 Total assets
                 (in millions)
    Date          at the time                            Number of
started/date           of      CAMELS       Number       corrective
   mailed        examination     rating     of MRBA        actions             Formal Actions
04/24/2006            $24      Limited exam to review policies and                  None
06/29/2006                     procedures, financial condition, asset
                               quality and credit administration,
                               compliance with the conditions of the
                               OTS Charter Approval Order,
                               compliance with the OTS-approved 3-
                               year de novo business plan, and
                               performance of management and the
                               directorate.
08/31/2006            $51      2/222222         1              5                    None
11/03/2006
11/30/2007            $59      3/233322         3             10                    None
02/22/2008
01/28/2008            $59      Limited exam: CAMELS composite rating downgraded from 2 to 3.
01/28/2008                     Downgraded CAMELS asset quality, management, and earnings
                               ratings from 2 to 3. *
03/23/2009            $76      5/553542         8             17       Notice of “Troubled
07/10/2009                                                             Condition” and supervisory
                                                                       restrictions, effective
                                                                       4/21/2009
                                                                       C&D order, effective
                                                                       8/21/2009
                                                                       PCA directive, effective
                                                                       9/18/2009
* An offsite limited-scope examination was conducted by the OTS prior to the issuance of the
 November 30, 2007 ROE. As this limited-scope examination was completed prior to the
 November 30, 2007, this examination officially downgraded Partners from CAMELS composite 2
 to CAMELS composite 3.
Source: OTS ROEs and notices.




                 Material Loss Review of Partners Bank                                    Page 14
         OTS Failed To Enforce Conditions of the Charter Approval Order

         One of the conditions of the thrift charter approval order for Partners states:5

         “The Savings Bank must operate within the parameters of its three-year business
         plan. The Savings Bank must submit for the prior, written non-objection of the
         Regional Director, any proposed major deviations or material changes from the
         plan. The request for change must be submitted no later than 60 calendar days
         prior to the desired implementation date with a copy sent to the FDIC Regional
         Office. ”

         In conjunction with the approval of the thrift charter application, Partners was
         required to comply with all the conditions of their application approval.
         Administration section 080 of the OTS Examination Handbook states that if there
         are violations of any condition OTS imposed in writing in connection with the
         granting of any application or other request by the association, OTS can assess
         civil money penalties, and if additional conditions are met, can issue orders of
         removal and prohibition.

         As discussed above, our review of correspondence revealed that within weeks of
         approval of the charter, the president of Partners conveyed to OTS that the
         organizers knew at the time of the filing of the charter that the business plan
         included in the charter application did not represent the strategic intent of the
         organizers of Partners and that Partners no longer considered the 2005 business
         plan to be viable. Partners also noted that they were deviating from the business
         plan approved in the charter application. In addition, in quarterly business plan
         variance reports prepared by OTS for Partners’ first year of operation, OTS noted
         that Partners was operating well outside its business plan parameters. Furthermore,
         OTS’s April 2006 ROE indicated that OTS was aware that Partners’ management
         had determined that the 2005 business plan was not viable, drafted a revised
         business plan to be submitted to OTS, and was deviating from the approved
         business plan. Subsequently, the August 2006 ROE indicated that adherence to the
         approved business plan had been a challenge, and there were several noticeable
         variances.

         Although OTS was aware that Partners was not in compliance with the condition
         of operating within the parameters of its 3-year business plan, OTS did not take
         appropriate action. Through discussions with OTS regional examination staff, OTS
         noted that examiners considered taking enforcement action, but determined that


5
    OTS Charter Approval Order Number 2005-32, dated August 18, 2005


                       Material Loss Review of Partners Bank                          Page 15
reminding Partners of the requirement to maintain and adhere to a business plan
that was representative of their strategic intent and allowing Partners to submit an
updated business plan was appropriate, despite the fact that more severe action
could have been taken.

OTS Did Not Accurately Rate Partners’ Asset Quality, Management, and Earnings
CAMELS Components

OTS’s first comprehensive full scope examination, dated August 31, 2006, resulted
in a composite CAMELS and component ratings of 2/222222. However, based on
the factors discussed below, we believe OTS had sufficient evidence to support a 3
rating related to the asset quality, management, earnings CAMELS components.
The assignment of CAMELS ratings is a judgmental process that requires examiners
to consider all of the objective and subjective variables, concepts, and guidelines
discussed in OTS’s Examination Handbook.

An asset quality rating of 3 is to be assigned when: asset quality or credit
administration practices are less than satisfactory; trends may be stable or indicate
deterioration in asset quality or an increase in risk exposure; the level and severity
of classified assets, other weaknesses, and risks require an elevated level of
supervisory concern; and there is generally a need to improve credit administration
and risk management practices. Partners’ portfolio composition and concentrations
in high-risk lending supported a more severe asset quality rating than the 2 rating
assigned by OTS during the examination. In the August 2006 ROE, OTS noted that
the April 2006 field visit disclosed that the outstanding balances for land and
construction loans significantly exceeded the board-approved limitations. In
response to examiner concerns, rather than address the asset composition, the
board merely approved revised loan portfolio limits in September 2006, which
allowed the composition at August 2006 to be in compliance with board-mandated
limits. In addition, Partners submitted a business plan with the charter application
that noted Partners would originate little, if any, speculative-type loans due to the
high risk involved in these types of loans. However, at June 30, 2006,
approximately half of the outstanding balance of construction loans were
speculative residential loans.

A management rating of 3 is to be assigned when: management and board
performance needs improvement or risk management practices are less than
satisfactory given the nature of the institution’s activities; the capabilities of
management or the board may be insufficient for the type, size, or condition of the
institution; and problems and significant risks may be inadequately identified,
measured, monitored, or controlled. The assignment of ratings is a judgmental


             Material Loss Review of Partners Bank                          Page 16
process and while OTS noted in the August 2006 ROE that management had
operated the bank in a safe and sound manner, the management team was
considered knowledgeable and capable, and the board had provided satisfactory
oversight, OTS had evidence that management misrepresented their strategic
intentions in their charter application, which we believe supported the consideration
of a more severe rating for the Management component.

An earnings rating of 3 is to be assigned when earnings need to be improved.
Earnings may not fully support operations and provide for the accretion of capital
and allowance levels in relation to the institution’s overall condition, growth, and
other factors affecting the quality, quantity, and trend of earnings. In the August
2006 ROE, OTS noted operating performance had been well short of business plan
projections. Most notably, actual noninterest expenses were higher than planned
because management underestimated pre-opening expenses by 25 percent. Actual
interest expense exceeded the plan projections by 144 percent. Actual noninterest
income was 78 percent lower than planned because of weak residential mortgage
origination income, which resulted in lower income from fees and the sale of loans.

In addition to supporting a 3 rating in asset quality, management, and earnings,
taken together, we believe this evidence supports a composite CAMELS rating of 3
in 2006.

In interviews with OTS regional examination staff, OTS noted that in general the 2
CAMELS composite rating was supported by the following facts:
    • Partners’ operations were proceeding more or less in accordance with the
       business plan;
    • Partners’ was attracting business at the planned rate; and
    • Partners’ capital was at the planned level.

Although these considerations were factored into OTS’s assignment of the
CAMELS composite rating of 2, OTS should have compared such facts to the
considerations noted in the ratings definitions included in the OTS Examination
Manual.

OTS Failed to Enforce Conditions of the Branch Application Approval

In November 2006, Partners applied to OTS for 3 additional branch locations.
Included within that application was a revised business plan. The revised business
plan noted that Partners Financial Corporation, Partners’ holding company, would
raise $12 million in additional capital, part of which would be infused into Partners




             Material Loss Review of Partners Bank                          Page 17
to support the resulting increased infrastructure costs related to three new planned
branches and the increased risk profile of the loan portfolio.

The OTS Applications Processing Handbook states that OTS should consider the
following factors in analyzing a branch application to determine if the branch
activity satisfies the applicable regulatory criteria for approval:
• Will the institution meet the minimum regulatory capital requirements of 12
    C.F.R. § 567.2, except as otherwise permitted under section 38(e)(4) of the
    FDIA, and be adequately capitalized under the PCA guidelines (12 C.F.R. Part
    565)?
• Will the new branch office have an adverse effect on the operations of the
    institution (fixed asset investment, projected savings growth, earnings)?

In a November 30, 2006, letter to Partners approving the branch application and
the revised 2006 business plan, OTS noted that it is incumbent upon management
and the directorate that Partners operate within the parameters of this revised
business plan, and any material variances therein must be communicated to OTS,
with any requested changes submitted no later than 60 calendar days prior to the
desired implementation date.

While the $12 million in additional capital was projected within the 2006 business
plan, and considered by OTS during their branch application approval process, OTS
did not require Partners Financial Corporation to raise the capital prior to Partners
moving forward with plans to open the new branches. Partners Financial
Corporation did not raise the $12 million capital, but did enter into leases and
incurred expenses related to the planned branch expansion.

Based on the OTS Applications Processing Handbook, OTS could have added an
additional capital as a condition to the branch application approval, as the capital
was necessary to support the increased infrastructure costs from the branch
expansion and the risk profile of its loan portfolio. Had OTS required Partners to
raise the additional capital prior to moving forward with the branch expansion plan,
Partners may have raised additional capital, which could have reduced the loss to
the Deposit Insurance Fund.

Additionally, in its 2007 business plan, submitted to the OTS for approval in early
2008, Partners stated that due to the deterioration of the economy in Partners’
service area during the latter half of 2006 and 2007, and in particular the housing
market, Partners’ deferred its plan to increase its branch network and, Partners
Financial Corporation did not sell additional shares of its common stock and, as a
result, did not infuse additional capital into Partners.


             Material Loss Review of Partners Bank                          Page 18
As noted above, noncompliance with the approved business plan is a condition that
could warrant formal or informal enforcement actions by OTS. OTS did not issue
formal or informal enforcement actions related to this noncompliance with the
approved business plan.

OTS Failed to Issue an Informal Enforcement Action When Partners Was Classified
as a Composite 3-rated Institution

The November 2007 ROE (full scope examination) and the January 2008 ROE
(limited scope examination) resulted in Partners’ CAMELS composite, asset quality,
management, and earning ratings being downgraded to 3s. However, OTS did not
issue an enforcement action as suggested by its guidance in place at the time.

During this timeframe, Administration Section 080 of the OTS Examination Manual
stated that:

“There is a presumption that savings associations with a composite rating of 3 for
the latest safety and soundness, compliance, trust, or information technology
examination warrant formal enforcement action under any of the following
circumstances:

     •   Management is weak.

     •   There is uncertainty as to whether management and the board have the
         ability or willingness to take appropriate corrective measures.

     •   Conditions are rapidly deteriorating.

     •   A 3-rating continues for two consecutive examinations following the thrift
         entering into the informal enforcement action, unless the thrift complies
         with the informal enforcement action and no new grounds exist for taking
         a formal action.

OTS may consider issuing an informal enforcement action for a 3-rated association
with strong management and a generally positive assessment if circumstances
suggest that remedial measures are immediately forthcoming. The capability,
cooperation, integrity, and commitment of management, board, and owners are
important considerations in choosing the appropriate actions. ”

In the November 2007 ROE and January 2008 ROE, OTS noted that the conditions
that resulted in the ratings in the asset quality, management and earnings
components, were related to decisions made by the initial management of Partners.


             Material Loss Review of Partners Bank                        Page 19
OTS also noted that Partners lacked direction and effective management.
Considering the management component rating as well as the comments regarding
the management of Partners, formal enforcement action could have been warranted
based on the guidance discussed above.

Partners received a CAMELS composite 3 rating, which included a management
component rating of a 3, if formal enforcement action was not deemed necessary,
OTS should have, at a minimum, considered an informal enforcement action based
on the above guidance. However, OTS did not take any formal or informal
enforcement action in conjunction with the issuance of the ROEs that resulted in a
CAMELS composite 3 rating. OTS noted in an interview that they informed
Partners’ management that there would be enforcement action during the next
examination if the CAMELS ratings did not improve.

The OTS guidance discussed above was revised in its July 18, 2008 update to the
OTS Examination Manual as follows:

“There is a presumption that savings associations or holding companies with a
composite examination rating of 3 warrant informal enforcement action. Although
failure appears unlikely given the association’s overall strength and financial
capacity, 3-rated institutions require more than normal supervision and an informal
enforcement action is presumed necessary.”

OTS noted in an interview that enforcement action, formal or informal, was not
taken due to a change in management and an announced change in the business
plan. In July 2007, a new chief executive officer (CEO) had been hired and Partners
was in the process of replacing other members of executive management. OTS
described the new CEO as an experienced banker that was capable of
implementing an updated business plan that would improve the performance of
Partners. However, the new CEO had been in place 5 months before the
examination date and was in place throughout the course of the examination, thus
the new management would have been considered by OTS in determining the
management component rating included within the November 2007 and January
2008 ROEs.

During our interview with OTS Southeast region supervisory staff, OTS indicated
that current practice for an institution that is rated CAMELS composite 3 is for OTS
to complete a site visit or limited-scope examination on a 6-month basis. However,
OTS indicated that they did not complete a site visit or limited-scope examination
because Partners recently hired new management.




            Material Loss Review of Partners Bank                          Page 20
OTS’s Use of Prompt Corrective Action
          The purpose of PCA is to resolve the problems of insured depository institutions at
          the least possible long-term loss to the Deposit Insurance Fund. PCA provides
          federal banking agencies with the authority to take certain actions when an
          institution’s capital drops to certain levels. PCA also gives regulators flexibility
          based on criteria other than capital levels to help reduce deposit insurance losses
          caused by unsafe and unsound practices.

          Partners’ capital levels deteriorated rapidly. Partners was considered Well
          Capitalized for PCA purposes as of December 31, 2008; Undercapitalized for PCA
          purposes as of March 31, 2009; and Critically Undercapitalized for PCA purposes
          as of June 30, 2009.

          OTS followed its PCA implementation guidance with respect to Partners, with the
          exception of one instance where OTS did not provide a timely notice of intent to
          issue a PCA directive stating that the bank had failed to submit a capital restoration
          plan. As a result of the March 23, 2009, examination, OTS required Partners to
          amend their TFR to reflect adjustments noted as part of the examination process.
          Once the true financial condition of Partners was known, OTS implemented PCA as
          described below.

          • Partners reported that they were adequately capitalized with a $1. 0 million net
            loss in the quarter ending March 2009; however, OTS identified additional
            losses totaling $1.1 million and required Partners to amend its TFR as of
            March 31, 2009. The amended TFR reported that Partners was undercapitalized
            by PCA standards as of March 31, 2009.
          • On July 13, 2009, OTS issued a supervisory directive that served to (1) notify
            Partners of its undercapitalized status; (2) require the submission of a capital
            restoration plan no later than August 26, 2009; and (3) require Partners to abide
            by mandatory PCA restrictions. The PCA mandatory restrictions included
            restrictions on the following:
                • capital distributions;
                • the payment of management fees;
                • growth in average total assets;
                • acquiring an interest in any company or insured depository institution or
                   the establishment of any additional branch offices; and
                • restrictions on increases in the use of brokered deposits 6 . ;


6
    An institution that is undercapitalized is prohibited from accepting, renewing or rolling over any brokered
    deposits under 12 CFR 337.6.


                          Material Loss Review of Partners Bank                                       Page 21
         •   On July 30, 2009, OTS determined that Partners was critically undercapitalized
             under PCA standards based on Partners June 30, 2009 TFR. On August 3,
             2009, OTS notified Partners that its PCA capital category had deteriorated to
             critically undercapitalized and required Partners to submit a capital restoration
             plan and to abide by the mandatory PCA restrictions set forth in the July 13,
             2009 directive. On August 6, 2009, OTS notified Partners that it was required
             to submit its capital restoration plan not later than August 17, 2009, more than
             a week sooner than required by the July 13, 2009 supervisory directive.
         •   On August 12, 2009, Partners’ board submitted a letter to OTS noting that no
             capital restoration plan would be forthcoming. OTS’s PCA guidance requires
             that a notice be submitted to an institution within 15 days of reviewing and
             either approving or denying an institution’s capital restoration plan. Since
             Partners indicated that they would not be providing a capital restoration plan
             and thus, there is no plan to review, the date of the receipt of the letter should
             be considered the date of the denial of the capital restoration plan. Using
             August 12, 2009 as the denial date, OTS guidance called for a notice of intent
             to issue a PCA directive to be issued by August 27, 2009; however, OTS did
             not issue such notice until September 8, 2009, 11 days later. 7
         •   On September 8, 2009, OTS issued a notice of intent to issue a PCA directive
             notifying Partners that (1) Partners had failed to file an acceptable Capital
             Restoration Plan; and (2) OTS requested that Partners’ board consent to a PCA
             Directive and a Stipulation and Consent to PCA Directive (Stipulation). The
             Stipulation included a provision that Partners consented to OTS’s appointment
             of a conservator or receiver for Partners.
         •   On September 18, 2009, the PCA directive and Stipulation became effective
             after Partners’ board of directors consented to its issuance. Partners’ board of
             directors consented to OTS’s appointment of a receiver.
         •   On September 22, 2009, OTS issued the final PCA directive with a
             September 18, 2009 effective date.
         •   On October 19, 2009, Partners’ board confirmed its intention to consent to the
             PCA directive in a Board Resolution.
         •   On October 23, 2009 OTS closed Partners and placed Partners into FDIC
             receivership.

         The PCA, Stipulation, and C&D order taken by OTS ultimately were unsuccessful
         to prevent Partners’ failure or a material loss to the Deposit Insurance Fund.




7
    OTS Examination Handbook, Section 080, Appendix A, Enforcement Actions.


                       Material Loss Review of Partners Bank                          Page 22
OTS’s Internal Failed Bank Review
           In accordance with OTS Policy, an internal review of Partners’ failure was
           performed to determine the causes of failure, evaluate the supervision exercised
           by OTS, and provide recommendations based upon the findings of the review. 8
           The OTS review, completed in April 2010, determined that Partners’ failure
           resulted from high levels of problem assets that steadily eroded capital.
           Partners’ deteriorating asset quality and continuing significant operating
           deficiencies eliminated any prospective acquirers or merger partners in order to
           recapitalize Partners Financial Corporation and Partners. The OTS review noted
           that concentrations of risk were also a contributor to Partners’ failure.

           The OTS review identified the following two areas where OTS supervision
           should have been more effective:
           1. OTS should have been more aggressive in resolving the viability of the
              approved business plan and the viability of the institution if the board failed
              to raise the additional $12 million in new capital. OTS’s supervisory response
              should have also set limits on any further lending until a viable business plan
              had been approved and any additional capital had been raised.
           2. OTS’ supervisory response should have been more aggressive given the
              noted lack of direction, numerous changes in the management structure,
              continued inability to adhere to an approved business plan, and less than
              satisfactory asset quality.

           The OTS internal review also made two recommendations to OTS:
           1. OTS should be more aggressive in its supervisory approach when a de novo
              institution deviates from its approved business plan. More aggressive
              supervision is especially warranted if after commencing operations OTS
              becomes aware that the approved business plan was never the business plan
              the organizers planned to pursue. Informal enforcement action, at a
              minimum, should be pursued when any material deviations occur from an
              approved business plan.




8
  OTS policy requires that an internal assessment be conducted when a thrift fails. That assessment,
referred to as an internal failed bank review, is performed by staff independent of the region responsible for
supervisory oversight of the failed thrift. The report is reviewed and signed by OTS’s deputy director of
examinations, supervision, and consumer protection. OTS’s Western Region initiated an internal review of
Partners following its failure in October 2009. The scope of the review focused on OTS’s supervision from
the application process in 2005 to Partners’ closure on October 23, 2009.


                       Material Loss Review of Partners Bank                                       Page 23
             2. OTS should consider higher capital requirements as well as absolute
                limitations of high-risk-lending concentrations. 9

             Based on our review of the examination records and reports and interviews with
             OTS staff, we affirm OTS’s internal findings and the need for corrective action.

Recommendations
             We recommend that OTS

             1. Take action on OTS’s internal failed bank review of Partners.

             2. Ensure supervisory staff enforce compliance with conditions of approved
                charters.

             3. Caution supervisory staff to exercise OTS’s discretion to impose additional
                conditions when approving modifications to an existing approved business
                plan, particularly when management does not fully comply with the original
                business plan.

             4. Caution supervisory staff to consider whether additional capital should be
                required and in place prior to permitting an institution to proceed with a
                business plan that requires additional capital, and

             5. Remind supervisory staff to consider OTS guidance regarding informal
                enforcement action when a bank is 3-rated.

Management Response to Recommendations

      In a written response, presented as Attachment 3 to this report, OTS acknowledged
      and concurred with our conclusions and recommendations in the report. OTS believes
      the policies, procedures and guidance it has put in place address the recommendations
      contained in the report.




9
    OTS previously addressed this recommendation through OTS’s CEO letter 311, Risk Management: Asset
    and Liability Concentrations, issued on July 9, 2009.


                        Material Loss Review of Partners Bank                               Page 24
                          Appendix 1
                          Objectives, Scope, and Methodology




Objectives

           We performed this performance audit under a contract with the Department of
           the Treasury Office of Inspector General (OIG) to satisfy the requirements in
           section 38(k) of the Federal Deposit Insurance (FDI) Act, 10 which provides, in
           general, that if a deposit insurance fund incurs a material loss with respect to an
           insured depository institution, the Inspector General of the appropriate federal
           banking agency shall prepare a report to that agency that:

           • ascertains why the institution’s problems resulted in a material loss to the
             Deposit Insurance Fund;
           • reviews the agency’s supervision of the institution, including its
             implementation of the prompt corrective action (PCA) provisions of
             section 38; and
           • makes recommendations for preventing any such loss in the future.

           At the time Partners Bank (Partners) failed on October 23, 2009, Section 38(k)
           of the FDI Act defined a loss as material if it exceeds the greater of $25 million
           or 2 percent of the institution’s total assets.11 The FDI Act also requires that the
           report be completed within 6 months after it becomes apparent that a material
           loss has been incurred. The requirement for the performance of a material loss
           review under section 38 was based on the loss estimate by the Federal Deposit
           Insurance Corporation (FDIC). As of May 26, 2011, FDIC estimated that
           Partners’ loss to the Deposit Insurance Fund was $34.6 million.

           Our audit objectives were to (1) determine the causes of Partners’ failure and
           resulting material loss to the DIF, (2) evaluate the Office of Thrift Supervision’s
           (OTS) supervision of the institution, including the implementation of the PCA
           provisions of section 38, and (3) make recommendations for preventing any
           such loss in the future.

           We conducted this performance audit from January 2010 to August 2010 in
           accordance with generally accepted government auditing standards. Those
           standards require that we plan and perform the audit to obtain sufficient,
           appropriate evidence to provide a reasonable basis for our findings and
           conclusions based on our audit objectives. We believe that the evidence

10
     12 U.S.C. § 1831o(k).
11
      P.L. 111-203, enacted on July 21, 2010, changed the definition of material loss in section 38(k) to
     any estimated loss in excess of $200 million for a loss occurring in 2010 and 2011, $150 million for a
     loss occurring in 2012 and 2013, and $50 million for a loss occurring in 2014 or after (with a
     provision for a temporary increase to $75 million if certain conditions are met).


                          Material Loss Review of Partners Bank                                    Page 25
                  Appendix 1
                  Objectives, Scope, and Methodology




     obtained provides a reasonable basis for our findings and conclusions based on
     our audit objectives.


Scope and Methodology

     The scope of this audit included an analysis of Partners from August 25, 2005
     until its failure on October 23, 2009. Our review also entailed an evaluation of
     the regulatory supervision of the institution over the same period.

     To achieve the objectives, we performed the following procedures and utilized
     the following techniques:
      • Analyzed examination reports, supporting workpapers, and related
         supervisory and enforcement correspondence prepared by OTS examiners
         from April 2006 to March 2009.
      • Analyzed OTS’s internal assessment of Partners’ failure.
      • Reviewed the following documentation:
        • Partners’ data and correspondence maintained by OTS’s Southeast
            Regional Office in Atlanta, as provided to us by OTS.
        • Reports prepared by the Federal Deposit Insurance Corporation (FDIC)
            Division of Resolutions and Receiverships (DRR) and Division of
            Supervision and Consumer Protection (DSC).
        • Pertinent OTS policies and procedures.
      • Interviewed the relevant OTS officials having supervisory responsibilities
         pertaining to Partners, which included OTS examination staff in the
         Southeast Region to discuss the historical perspective of the institution, its
         examinations, and other activities regarding the supervision of Partners.
      • Interviewed the relevant FDIC officials having involvement in the
         receivership of Partners.

   We relied primarily upon materials provided by OTS and FDIC DRR, including
   information and other data collected during interviews. We did not perform
   specific audit procedures to ensure the information and data were complete and
   accurate.

   We are, however, aware that Treasury Order 114-01, dated May 16, 1989,
   requires that all Treasury officers and employees cooperate with the Treasury OIG
   in order for the OIG to carry out its statutory mandate. To that end, no officer or
   employee shall:




                  Material Loss Review of Partners Bank                           Page 26
                    Appendix 1
                    Objectives, Scope, and Methodology




   a.     prevent the Inspector General from initiating, carrying out, or completing any
        audit or investigation, or from issuing any subpoena during the course of an
        audit or investigation, except that the Inspector General shall be under the
        authority, direction, and control of the Secretary and the Deputy Secretary of
        the Treasury with respect to matters set forth in Section 8C(a) of the Inspector
        General Act, as amended.

   b.      prevent or prohibit any duly appointed officer or employee of the Office of
        Inspector General from obtaining access to any information or documentation
        which the Inspector General has determined is necessary to the execution of an
        audit, investigation or other inquiry, except that the Inspector General shall be
        under the authority, direction, and control of the Secretary and the Deputy
        Secretary of the Treasury with respect to matters set forth in Section 8C(a) of
        the Inspector General Act, as amended.

        Interviews were conducted to gain a better understanding of decisions made
        regarding the supervisory approach to the institution and to clarify information
        and conclusions contained in the reports of examination (ROEs) and other
        relevant supervisory correspondence between OTS and Partners. We relied on
        the information provided in the interviews without conducting additional
        specific audit procedures to test such information.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

        Consistent with the audit objectives, we did not assess OTS’s overall internal
        control or management control structure. We relied on information in OTS
        systems, reports, ROEs, and interviews of examiners to understand Partners’
        management controls pertaining to causes of failure and material loss as
        discussed in the body of this report.

        We obtained data from various OTS systems but determined that information
        system controls were not significant to the audit objective and, therefore, did
        not evaluate the effectiveness of information system controls. We relied on our
        analysis of information from various sources, including ROEs, correspondence
        files, and testimonial evidence to corroborate data obtained from systems that
        were used to support our audit conclusions.

        The Government Performance and Results Act of 1993 (the Results Act)
        directs Executive Branch agencies to develop a consumer-focused strategic
        plan, align agency programs and activities with concrete missions and goals,


                    Material Loss Review of Partners Bank                          Page 27
            Appendix 1
            Objectives, Scope, and Methodology




and prepare and report on annual performance plans. For this material loss
review, we did not assess the strengths and weaknesses of OTS’s annual
performance plan in meeting the requirements of the Results Act because such
an assessment is not part of the audit objectives.

Regarding compliance with laws and regulations, we performed tests to
determine whether OTS has complied with provisions of PCA and limited tests
to determine compliance with certain aspects of the FDI Act. The results of our
tests are discussed, when appropriate, in this report. Additionally, we assessed
the risk of fraud and abuse related to out audit objectives in the course of
evaluating audit evidence.




            Material Loss Review of Partners Bank                         Page 28
                  Appendix 2
                  Background




Partners Bank History

   An application was filed on behalf of Partners Financial Corporation (PFC) to
   acquire control of Partners Bank (Partners) in connection with the de novo
   application filing for Partners on October 20, 2004. The Office of Thrift
   Supervision (OTS) approved the application on August 18, 2005, and Partners
   was chartered as a Savings Bank on August 24, 2005. Partners’ primary operation
   was originating loans, including residential mortgage loans and nonresidential,
   construction, and commercial loans, and taking deposits. Partners’ beginning asset
   balance was over $8 million and was projected to grow to $91 million by its third
   year of operation. It was also projected to sustain net losses in its first 2 years of
   operation, but to record net income of $370 thousand by year 3. However, this
   did not come to pass, and Partners sustained net losses in each year of operation
   until its closing in 2009.

   Partners opened with an office in Naples, Florida. In September 2006, Partners
   submitted an application to open three additional branches, including a new
   headquarter office in Naples, and an expansion into Everglades City, Florida. At
   that time, Partners’ submitted a revised business plan to OTS that called for $12
   million of additional capital to be infused into Partners in order to support the new
   branches. In early 2007, the chairman and CEO of Partners and PFC resigned.
   Partners and PFC appointed a new president and CEO later in 2007, but Partners
   continued to experience turnover among the management group as Partners
   continued incurring operating losses and capital erosion through 2009. On October
   23, 2009, OTS closed Partners and appointed FDIC as receiver. At the time of
   closing, Partners had assets of $63.4 million.

Types of Examinations Conducted by OTS

   OTS conducts various types of examinations including safety and soundness and
   compliance. These come in the form of both limited-scope examinations and full-
   scope examinations. OTS must conduct a full-scope examination of insured thrifts
   either once every 12 months or once every 18 months. During a full-scope exam,
   the examiners conduct an on-site examination and rate all CAMELS components.
   OTS then assigns each thrift a CAMELS composite rating based on its assessment
   of the overall condition and level of supervisory concern.

   OTS uses the 12-month cycle until a thrift’s management has demonstrated its
   ability to operate the institution in a safe and sound manner and has satisfied all
   conditions imposed at the time of approval of its charter. The 12-month
   examination cycle is applied to de novo institutions.


                  Material Loss Review of Partners Bank                           Page 29
               Appendix 2
               Background




Enforcement Actions Available to OTS

   OTS examinations of thrifts result in the issuance of reports of examinations
   (ROE) identifying areas of concern. OTS uses informal and formal enforcement
   actions to address violations of laws and regulations and to address unsafe and
   unsound practices.

   Informal Enforcement Actions

   When a thrift’s overall condition is sound, but it is necessary to obtain written
   commitments from a thrift’s board of directors (board) or management to
   ensure that it will correct identified problems and weaknesses, OTS may use
   informal enforcement actions. OTS commonly uses informal actions for
   problems in well or adequately capitalized thrifts and for thrifts with a
   composite rating of 1, 2, or 3. Informal actions notify a thrift’s board and
   management that OTS has identified problems that warrant attention. A record
   of informal action is beneficial in the event that formal action is necessary later.

   If a thrift violates or refuses to comply with an informal action, OTS cannot
   enforce compliance in federal court or assess civil money penalties for
   noncompliance. However, OTS may initiate more severe enforcement action
   against a noncompliant thrift. The effectiveness of informal action depends in
   part on the willingness and ability of a thrift to correct deficiencies that OTS
   notes. Informal enforcement actions include supervisory directives, memoranda
   of understanding, and board resolutions.

   Formal Enforcement Actions

   If informal tools do not resolve a problem that has been identified, OTS is to
   use formal enforcement tools. Formal enforcement actions are enforceable
   under the Federal Deposit Insurance Act. They are appropriate when a thrift
   has significant problems, especially when there is a threat of harm to the thrift,
   depositors, or the public. OTS is to use formal enforcement actions when
   informal actions are considered inadequate, ineffective, or otherwise unlikely to
   secure correction of safety and soundness or compliance problems.

   OTS can assess civil money penalties against thrifts and individuals for
   noncompliance with a formal agreement or final orders. OTS can also request a
   federal court to require the thrift to comply with an order. Unlike informal
   actions, formal enforcement actions are public. Formal enforcement actions




               Material Loss Review of Partners Bank                            Page 30
                  Appendix 2
                  Background




      include cease and desist orders, civil money penalties, and prompt corrective
      action directives.

      OTS Enforcement Guidelines

      Considerations for determining whether to use informal action or formal action
      include the following:
       • the extent of actual or potential damage, harm, or loss to the thrift because
           of the action or inaction;
       • whether the thrift has repeated the illegal action or unsafe or unsound
           practice;
       • the likelihood that the conduct may occur again;
       • the thrift’s record for taking corrective action in the past;
       • the capability, cooperation, integrity, and commitment of the thrift’s
           management, board, and ownership to correct identified problems;
       • the effect of the illegal, unsafe, or unsound conduct on other financial
           institutions, depositors, or the public;
       • the examination rating of the thrift;
       • whether the thrift’s condition is improving or deteriorating; and
       • the presence of unique circumstances.

OTS Assessments Paid by Partners

      OTS funds its operations in part through semiannual assessments on savings
      associations. OTS determines each institution’s assessment by adding together
      three components reflecting the size, condition, and complexity of an
      institution. OTS computes the size component by multiplying an institution’s
      total assets, as reported on its thrift financial report, by the applicable
      assessment rate. The condition component is a percentage of the size
      component and is imposed on institutions that have a 3, 4, or 5 CAMELS
      composite rating. OTS imposes a complexity component if (1) a thrift
      administers more than $1 billion in trust assets; (2) the outstanding balance of
      assets fully or partially covered by recourse obligations or direct credit
      substitutes exceeds $1 billion, or (3) the thrift services over $1 billion of loans
      for others. OTS calculates the complexity component by multiplying set rates
      by the amounts by which an association exceeds each threshold. Table 2
      shows the assessments that Partners paid to OTS from 2005 through 2009.




                  Material Loss Review of Partners Bank                            Page 31
                   Appendix 2
                   Background




               Table 2: Assessments Paid by Bank to OTS, 2005–2009
                Billing Period                 Exam Rating          Amount Paid
                1/1/2006–6/30/2006                 N/A                 $ 5,172
                7/1/2006–12/31/2006                N/A                 $10,662
                1/1/2007–6/30/2007                  2                  $11,534
                7/1/2007–12/31/2007                 2                  $13,727
                1/1/2008–6/30/2008                  3                  $19,700
                7/1/2008–12/31/2008                 3                  $20,018
                1/1/2009–6/30/2009                  3                  $22,880
                7/1/2009–12/31/2009                 5                  $30,966
                Total                                                 $134,659

               Source: OTS.




Number of OTS Staff Hours Spent Examining Bank

           Table 3 shows the number of OTS staff hours spent examining Bank from
           2005 to 2009.
                        
           Table 3: Number of OTS Hours Spent on Examining Bank, 2005-2009


                Examination
                            Start          Type of Examination               Number of
                       Date                                              Examination Hours*
                   4/24/2006                    Limited-scope                   311
                   8/31/2006                      Full-scope                    319
                  11/30/2007                      Full-scope                    499
                   3/23/2009                      Full-scope                   1,264
                Total                                                          2,393
             Source: OTS

            *Hours are totaled for safety and soundness examinations, information technology examinations,
            and compliance examinations.




                   Material Loss Review of Partners Bank                                          Page 32
Appendix 3
Management Response




Material Loss Review of Partners Bank   Page 33
    Section II

Report Distribution
This page intentionally left blank.
Department of the Treasury

        Office of Strategic Planning and Performance Management
        Office of Accounting and Internal Control

Office of Thrift Supervision

        Acting Director
        Liaison Officer

Office of Management and Budget

        OIG Budget Examiner

United States Senate

        Chairman and Ranking Member
        Committee on Banking, Housing, and Urban Affairs

        Chairman and Ranking Member
        Committee on Finance

U.S. House of Representatives

        Chairman and Ranking Member
        Committee on Financial Services

Federal Deposit Insurance Corporation

        Acting Chairman
        Inspector General

U.S. Government Accountability Office

        Comptroller General of the United States




Material Loss Review of Partners Bank                             Section II
(OIG-11-084)
